Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDIC BENEFIT INTEGRITY
  ACTIVITIES IN MEDICARE
      PARTS C AND D




                    Daniel R. Levinson
                     Inspector General

                      January 2013
                     OEI-03-11-00310
EXECUTIVE SUMMARY: MEDIC BENEFIT INTEGRITY ACTIVITIES IN MEDICARE
PARTS C AND D (OEI-03-11-00310)

WHY WE DID THIS STUDY

This report focuses on the one Medicare Drug Integrity Contractor (MEDIC) responsible for
detecting and preventing fraud, waste, and abuse in Medicare Parts C and D nationwide. The report
provides an update on MEDIC identification of potential Part D fraud and abuse and is the first
review of MEDIC antifraud activities for Part C.

HOW WE DID THIS STUDY

From the Centers for Medicare & Medicaid Services (CMS) and the MEDIC, we collected data on
the MEDIC’s benefit integrity activities between April 2010 and March 2011.

WHAT WE FOUND

Although the MEDIC has benefit integrity responsibility for both Medicare Parts C and D, its Part C
investigations and case referrals represented a small percentage of its benefit integrity activities. In
addition, a small percentage of the MEDIC’s investigations and case referrals resulted from
proactive methods. Moreover, barriers exist regarding data availability, access to information, and
the recovery of inappropriate payments. Specifically, the lack of a centralized Part C data
repository hinders the MEDIC’s ability to identify and investigate Part C fraud. Additionally, the
MEDIC reported that it is prohibited from sharing specific information with other program integrity
contractors. Further, there is no mechanism to recover payments from Part C or Part D plan
sponsors when law enforcement agencies do not accept cases involving inappropriate services for
further action. Other barriers remain, such as prescription drug event data limitations; the lack of a
requirement for sponsors to refer incidents of potential fraud and abuse; and the MEDIC’s lack of
authority to directly obtain information from pharmacies, physicians, and pharmacy benefit
managers. Also, CMS does not require the MEDIC to submit data elements that could help CMS
oversee the MEDIC’s benefit integrity activities.

WHAT WE RECOMMEND

We recommend that CMS (1) provide the MEDIC with centralized Part C data to enable it to more
comprehensively and proactively identify and investigate Part C fraud and abuse; (2) clarify its
policy and instruct the MEDIC as to under what circumstances the MEDIC may share specific
information with other entities, including Zone Program Integrity Contractors and State agencies;
(3) explore methods to develop and implement a mechanism to recover payments from Part C and
Part D plan sponsors when law enforcement agencies do not accept cases involving inappropriate
services for further action; (4) amend regulations to authorize the MEDIC to directly obtain
information from entities such as pharmacies, physicians, and pharmacy benefit managers;
(5) amend regulations to require Part C and Part D plan sponsors to refer potential fraud and abuse
incidents to the MEDIC; and (6) enhance monthly workload reporting requirements to improve
CMS oversight of the MEDIC’s benefit integrity activities. CMS concurred with the first, second,
and sixth recommendations; partially concurred with the third and fifth; and did not concur with the
fourth recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings........................................................................................................9
           Part C investigations and case referrals represented a small
           percentage of the MEDIC’s benefit integrity activities ...................9
           A small percentage of the MEDIC’s investigations and case
           referrals resulted from proactive methods .....................................10
           Barriers exist regarding data availability, access to information,
           and recovery of inappropriate payments ........................................12
           CMS does not require the MEDIC to submit data elements that
           could help CMS oversee the MEDIC’s benefit integrity
           activities .........................................................................................18
Conclusion and Recommendations ............................................................20
           Agency Comments and Office of Inspector General Response.....23
Appendixes ................................................................................................25
         A: Types of Potential Part C and Part D Fraud and Abuse ..............25
         B: Agency Comments .....................................................................28
Acknowledgments......................................................................................33
                 OBJECTIVES
                 1. To determine the extent to which the National Benefit Integrity (NBI)
                      Medicare Drug Integrity Contractor (MEDIC) performed Medicare
                      Parts C and D benefit integrity activities.
                 2. To describe barriers the NBI MEDIC encountered in performing its
                      Medicare Parts C and D benefit integrity activities and to determine
                      whether MEDIC barriers identified previously have been resolved.
                 3. To identify workload data elements that could improve the Centers for
                      Medicare & Medicaid Services’ (CMS) oversight of the NBI MEDIC’s
                      benefit integrity activities.

                 BACKGROUND
                 The Office of Inspector General (OIG) issued a report in October 2009
                 that identified barriers to the three regional MEDICs’ identification of
                 potential Part D fraud and abuse during fiscal year (FY) 2008. 1 Since
                 then, Part D benefit integrity responsibilities have transitioned from three
                 regional MEDICs to one national MEDIC and CMS has added oversight
                 of Part C as a MEDIC responsibility. This study provides an update on
                 MEDIC identification of potential Part D fraud and abuse and is the first
                 review of MEDIC antifraud activities for Part C.
                 The Balanced Budget Act of 1997 established Medicare Part C in
                 January 1999. CMS contracts with private organizations under Part C to
                 provide private health plan options, including managed care plans. The
                 Medicare Prescription Drug, Improvement, and Modernization Act of
                 2003 established Medicare Part D to provide prescription drug benefits
                 under Medicare beginning January 1, 2006. Beginning in FY 2007, CMS
                 awarded contracts to three regional MEDICs to address potential fraud and
                 abuse related to the Part D benefit. 2, 3
                 Since that time, MEDIC responsibilities and jurisdictions have been
                 revised several times. CMS did not renew the contract for one of the
                 MEDICs for FY 2009, transitioning its responsibilities to the remaining


                 1
                  OIG, Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and Abuse,
                 OEI-03-08-00420, October 2009.
                 2
                   Section 202(a) of the Health Insurance Portability and Accountability Act of 1996, P.L. 104-191, enacted
                 section 1893 of the Social Security Act, 42 U.S.C. § 1395ddd, establishing the Medicare Integrity Program and
                 providing the statutory basis for CMS to enter into contracts with entities to perform work to address potential
                 fraud and abuse.
                 3
                  In FY 2006, CMS awarded a single MEDIC a national contract to monitor fraud and abuse related to Part D
                 enrollment and eligibility issues. In FY 2007, this MEDIC became a regional MEDIC.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                  1
                 two MEDICs. Additionally, in FY 2009, these two MEDICs were given
                 oversight responsibility for Part C.
                 For FY 2010, CMS realigned the regional MEDICs into two national
                 MEDICs, one designated as the NBI MEDIC and the other as the
                 Compliance and Enforcement (C&E) MEDIC. The NBI MEDIC assumed
                 responsibility for detecting and preventing Parts C and D fraud, waste, and
                 abuse nationwide and transitioned its compliance workload to the C&E
                 MEDIC. 4 The C&E MEDIC assumed responsibility for performing
                 compliance and enforcement activities nationwide and transitioned its
                 fraud, waste, and abuse workload to the NBI MEDIC.
                 For FY 2011, CMS retained the NBI MEDIC to detect and prevent fraud,
                 waste, and abuse. The C&E MEDIC received a task order requiring it to
                 perform special and ad hoc studies for CMS in addition to providing
                 ongoing technical assistance to CMS and the NBI MEDIC for fraud,
                 waste, and abuse activities.
                 As a result of these realignments, benefit integrity activities were
                 performed primarily by the NBI MEDIC during FYs 2010 and 2011 for
                 Parts C and D. These programs involve significant benefit expenditures
                 and a substantial number of beneficiaries. In calendar year 2011, total
                 benefit expenditures (excluding administrative expenses) for Medicare
                 Parts C and D were $190 billion.5 As of March 2012, 33 million
                 beneficiaries were enrolled in these programs. 6 The NBI MEDIC received
                 a total of $28.2 million to carry out its contractual responsibilities for
                 FYs 2010 and 2011.
                 Types of Fraud and Abuse
                 According to the MEDIC Statement of Work, fraud is the intentional
                 deception or misrepresentation that an individual makes, knowing it to be
                 false or not believing it to be true, that could result in some unauthorized
                 benefit to himself/herself or some other person. 7 Abuse is, for example,
                 billing Medicare for services that are not covered or are not correctly
                 coded. Types of Part C fraud include misrepresenting enrollment or


                 4
                   According to the NBI MEDIC’s transition and technical assistance task order, the compliance workload
                 transferred to the C&E MEDIC is defined as: (1) non-fraud, -waste, and -abuse complaints and investigations
                 against agents and brokers involving potential violations of Medicare regulations or guidelines; (2) referrals
                 to State Department of Insurance; and (3) all work associated with the CMS Program Compliance and
                 Oversight Group.
                 5
                  The Boards of Trustees of the Federal Hospital Insurance and Federal Supplementary Medical Insurance Trust
                 Funds, 2012 Annual Report, page 10. Accessed at http://www.cms.gov/Research-Statistics-Data-and-
                 Systems/Statistics-Trends-and-Reports/ReportsTrustFunds/downloads/tr2012.pdf on April 24, 2012.
                 6
                   CMS, Monthly Contract and Enrollment Summary Report, March 2012. Accessed at
                 http://www.cms.gov/MCRAdvPartDEnrolData/MCESR/list.asp#TopOfPage on March 31, 2012.
                 7
                     CMS, MEDIC Statement of Work, section 2.1, July 2009.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                    2
                 encounter data to increase payments, receiving duplicative copayments or
                 premiums from beneficiaries, and submitting claims for services not
                 provided. Part D fraud includes billing for drugs not provided, altering
                 prescriptions to obtain higher payment amounts, and using another
                 person’s Medicare card to obtain prescriptions.
                 NBI MEDIC Activities
                 As detailed in the MEDIC Statement of Work and NBI MEDIC task order,
                 the responsibilities of the NBI MEDIC (hereafter referred to as “the
                 MEDIC”) include, but are not limited to:
                      •   identifying and investigating potential Part C and Part D fraud and
                          abuse,
                      •   referring cases and making immediate advisements to the
                          Department of Health and Human Services OIG, and
                      •   fulfilling requests for information from law enforcement agencies.
                 Identification and Investigation of Fraud and Abuse. The MEDIC is
                 required to identify potential fraud and abuse by means of proactive
                 methods as well as through external sources. Examples of external
                 sources of fraud leads include beneficiaries, law enforcement agencies,
                 Part D plan sponsors, Medicare Advantage (MA) plan sponsors (also
                 known as Part C plan sponsors or MA organizations), and CMS.
                 Examples of proactive methods for identifying potential fraud include
                 developing projects for analyzing claims data and conducting Internet
                 searches to identify leads. Using ideas from external sources to look for
                 unidentified billing aberrancies is also considered a proactive method.
                 According to the MEDIC Statement of Work, the MEDIC is required to
                 access data from a variety of sources and its ability to apply innovative
                 analytical methodologies is critical to its success in benefit integrity
                 activities.
                 When the MEDIC receives an allegation of fraud from an external source
                 or proactively identifies potential fraud, it conducts an investigation to
                 determine the facts and the magnitude of potential fraud. Investigations
                 may include a review of claims, prescriptions, or cost reports. The
                 MEDIC is required to prioritize its investigation workload to ensure that
                 investigations with the greatest program impact and/or urgency are given
                 the highest priority. The MEDIC also is required to consult with OIG to
                 determine whether an investigation should be further developed for
                 possible case referral to OIG.
                 Case Referrals and Immediate Advisements. According to the MEDIC
                 Statement of Work, a case exists when the MEDIC has substantiated and
                 referred a fraud allegation to law enforcement. This includes, but is not

MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                 3
                 limited to, documented allegations that a provider, beneficiary, pharmacy,
                 pharmacy benefit manager, Part D plan sponsor, or MA plan sponsor has:
                 (1) engaged in a pattern of improper prescription writing or billing,
                 (2) submitted improper claims with actual knowledge of their falsity, or
                 (3) submitted improper claims with reckless disregard or deliberate
                 ignorance of their truth or falsity.
                 According to the MEDIC Statement of Work, OIG has 90 calendar days to
                 accept or reject a case referred by the MEDIC. If the MEDIC does not
                 receive a response from OIG within 90 calendar days and its attempts to
                 determine the status of the case are unsuccessful, the MEDIC may then
                 refer the case to the Federal Bureau of Investigation (FBI) and/or another
                 investigative agency with interest in the case.
                 The MEDIC refers certain allegations directly to OIG without first
                 conducting an investigation. These are called immediate advisements and
                 include, for example, allegations by current or former employees of the
                 following entities suspected of fraud: (1) providers, (2) Part D plan
                 sponsors and/or their subcontractors, or (3) MA plan sponsors and/or their
                 subcontractors. Allegations involving entities that OIG is already
                 investigating for fraud are also referred directly to OIG as immediate
                 advisements.
                 Requests for Information. Law enforcement agencies may request
                 beneficiary and provider information from the MEDIC to further their
                 investigations or fraud prosecutions. These agencies include OIG; the
                 Department of Justice (DOJ); and other entities, such as State survey and
                 certification agencies and Medicaid Fraud Control Units. OIG’s requests
                 for information generally fall into one of two categories. Priority I
                 requests are top-priority requests for which the information is essential to
                 the prosecution of a provider and the data are obtained from the MEDIC’s
                 files. Priority I requests require a response within 30 days whenever
                 possible. Priority II requests are less critical and may require, for
                 example, soliciting information from other sources. Priority II requests
                 require a response within 45 days whenever possible.
                 Medicare Drug Integrity Contractor Reporting Requirements
                 According to the MEDIC Statement of Work, the MEDIC is required to
                 submit a monthly status report to CMS. As part of its monthly reporting,
                 the MEDIC provides data on its investigations, immediate advisements,
                 case referrals, proactive data analyses, and requests for information.
                 Previous Office of Inspector General Work
                 MEDIC Identification of Fraud and Abuse. In October 2009, OIG issued
                 a report on the three regional MEDICs’ identification of potential fraud


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                4
                 and abuse in Part D during FY 2008. 8 This report highlighted MEDICs’
                 minimal use of proactive methods. The report also described problems
                 that MEDICs encountered with accessing and using data that hindered
                 their ability to investigate potential fraud and abuse incidents. In addition,
                 MEDICs’ lack of authority to directly obtain information from
                 pharmacies, pharmacy benefit managers, and physicians also hindered
                 their ability to investigate potential fraud and abuse. Furthermore, the
                 report found that the MEDICs may not have been aware of some potential
                 fraud and abuse incidents because plan sponsors were not required to refer
                 them.
                 In the 2009 report, OIG recommended, in part, that CMS (1) ensure that
                 MEDICs have access to accurate and comprehensive data to assist them in
                 identifying and investigating potential fraud and abuse and conducting
                 proactive data analysis; (2) authorize MEDICs to directly obtain
                 information that they need to identify and investigate potential fraud and
                 abuse from entities, such as pharmacies, pharmacy benefit managers, and
                 physicians; and (3) require plan sponsors to report to MEDICs all potential
                 fraud and abuse incidents that sponsors refer to law enforcement agencies.
                 Plan Sponsor Identification of Fraud and Abuse. An October 2008 OIG
                 report examined the extent to which Medicare Part D plan sponsors
                 identified and took steps to address potential fraud and abuse in the first
                 6 months of 2007. 9 The report found that over a quarter of plan sponsors
                 did not identify any incidents of fraud and abuse. The report also found
                 that a few plan sponsors identified most incidents of potential fraud and
                 abuse. Even the sponsors that identified such incidents did not always
                 conduct inquiries or take corrective actions. Just two plan sponsors made
                 89 percent of all referrals of incidents to MEDICs.
                 A February 2012 OIG report examined the extent to which MA
                 organizations (i.e., MA plan sponsors, also known as Part C plan sponsors)
                 identified and took steps to address potential fraud and abuse in 2009. 10
                 That report’s findings on MA organizations were similar to those from the
                 October 2008 report on Part D plan sponsors. The February 2012 report
                 found that 19 percent of MA organizations did not identify any potential
                 fraud and abuse incidents related to their Part C health benefits or Part D
                 drug benefits. Three MA organizations identified 95 percent of the total


                 8
                  OIG, Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and Abuse,
                 OEI-03-08-00420, October 2009.
                 9
                  OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse, OEI-03-07-00380,
                 October 2008.
                 10
                   OIG, Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse, OEI-03-10-00310,
                 February 2012.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                            5
                 1.4 million reported incidents. Although CMS requires MA organizations
                 to initiate inquiries and corrective actions when appropriate, not all MA
                 organizations took such steps in response to incidents they identified.
                 Overall, in 2009, MA organizations sent 2,656 referrals of potential fraud
                 and abuse incidents to other entities, including MEDICs and OIG, for
                 further investigation. These 2,656 referrals included 1,728 Part C referrals
                 and 928 Part D referrals.
                 Questionable Part D Billing. A May 2012 OIG report identified over
                 2,600 retail pharmacies that had questionable Part D billing in 2009. 11 For
                 example, almost 800 pharmacies billed extremely high dollar amounts per
                 beneficiary and 850 pharmacies billed extremely high dollar amounts per
                 prescriber. OIG recommended, in part, that CMS (1) strengthen the
                 MEDIC’s monitoring of pharmacies and ability to identify pharmacies for
                 further review and (2) require sponsors to refer potential fraud and abuse
                 incidents that may warrant further investigation.

                 METHODOLOGY
                 Scope
                 We reviewed Part C and Part D benefit integrity activities conducted by
                 the MEDIC between April 1, 2010, and March 31, 2011.
                 Data Collection
                 From CMS, we collected workload data related to the MEDIC’s benefit
                 integrity activities between April 1, 2010, and March 31, 2011. The data
                 included information on the number of new investigations, case referrals,
                 immediate advisements, proactive data analyses, and requests for
                 information handled by the MEDIC. Additionally, we asked CMS about
                 the MEDIC’s responsibility regarding recommending administrative
                 actions, such as the recovery of inappropriate payments.
                 We also sent a survey request to the MEDIC. Because the workload data
                 we received from CMS were not separated into Part C-related data and
                 Part D-related data, we requested that the MEDIC provide the separated
                 data. We also requested that the MEDIC provide the number of new
                 investigations and case referrals that resulted from proactive methods and
                 external sources. We asked the MEDIC to indicate the types of Part C and
                 Part D fraud and abuse that its investigations and case referrals involved.
                 Additionally, we asked the MEDIC to describe the types of proactive
                 projects that it developed and to provide data on the number of proactive
                 projects started during the review timeframe.


                 11
                      OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600, May 2012.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                              6
                 We requested information from the MEDIC about any issues or barriers it
                 encountered in performing its benefit integrity activities. We also asked
                 the MEDIC for an update about barriers identified in our MEDIC report
                 issued in October 2009, hereafter referred to as our “previous MEDIC
                 report.” 12 We followed up with the MEDIC to obtain clarification on its
                 responses. We conducted data collection and followup between
                 August 2011 and June 2012.
                 Data Analysis
                 We compared the workload data submitted by CMS to the data submitted
                 by the MEDIC in its survey response to determine whether the data
                 matched. We identified some discrepancies through this review and
                 followed up with the MEDIC to obtain the correct data.
                 After obtaining these data, we calculated the percentages of new
                 investigations initiated, cases referred, and immediate advisements sent for
                 Part C only, Part D only, and Parts C and D. We also calculated the
                 percentages of investigations and cases that were initiated from proactive
                 methods and external sources. Additionally, we compared the numbers of
                 investigations initiated and cases referred during our review timeframe to
                 those from our previous MEDIC report. We aggregated the number of
                 requests for information received and completed for OIG, DOJ, and other
                 law enforcement agencies for Part C only, Part D only, and Parts C and D.
                 We also reviewed the template for the MEDIC’s workload data to
                 determine whether any data elements were needed that could improve
                 CMS’s oversight of the MEDIC.
                 We reviewed the types of Part C and Part D fraud and abuse that the
                 MEDIC’s investigations and case referrals involved. Using the number of
                 investigations and case referrals for each type of fraud and abuse, we
                 ranked the types to determine which were most prevalent among the
                 MEDIC’s Part C and Part D investigations and case referrals.
                 We summarized the MEDIC’s survey responses regarding issues and
                 barriers that it encountered in performing its benefit integrity activities,
                 such as investigating potential fraud and abuse and obtaining data. We
                 also summarized the MEDIC’s responses regarding the status of barriers
                 identified in our previous MEDIC report and used this information to
                 determine whether the barriers had been resolved or still remained.




                 12
                   OIG, Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and Abuse,
                 OEI-03-08-00420, October 2009.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                     7
                 Limitations
                 The workload data and survey information included in this report were
                 self-reported by the MEDIC. Although we asked the MEDIC to reconcile
                 inconsistencies between the workload data that CMS provided and the
                 data that the MEDIC provided in its survey response, we did not
                 independently validate the information.
                 Standards
                 This study was conducted in accordance with the Quality Standards for
                 Inspection and Evaluation issued by the Council of the Inspectors General
                 on Integrity and Efficiency.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)           8
                 FINDINGS
                 Part C investigations and case referrals represented a
                 small percentage of the MEDIC’s benefit integrity
                 activities
                 Although the MEDIC is responsible for conducting investigations and
                 referring cases and immediate advisements involving both Part C and
                 Part D, most of the MEDIC’s workload involved Part D. 13 The MEDIC
                 opened a total of 2,277 new investigations between April 2010 and
                 March 2011. Of these new investigations, 8 percent involved Part C only,
                 79 percent involved Part D only, and 13 percent involved both Parts C
                 and D. The types of fraud and abuse that the MEDIC most often
                 investigated were suspect billing for Part C and inappropriate prescribing
                 for Part D. Appendix A provides a complete list of the types of potential
                 Part C and Part D fraud and abuse.
                 As with investigations, most case referrals involved Part D. The MEDIC
                 referred a total of 245 cases to law enforcement between April 2010 and
                 March 2011. Of those cases, 8 percent involved Part C only, 91 percent
                 involved Part D only, and 1 percent involved Parts C and D. Table 1
                 shows the numbers and percentages of new investigations and case
                 referrals by type of service between April 1, 2010, and March 31, 2011.
                 Most of the MEDIC’s cases—92 percent—were referred to OIG. Not all
                 cases referred to OIG are accepted for further action. The remaining case
                 referrals were sent to other agencies, such as DOJ and/or FBI; State and
                 local law enforcement; and the Internal Revenue Service. The types of
                 fraud and abuse cases most often referred by the MEDIC were those
                 involving beneficiary or provider identity theft for Part C and
                 inappropriate billing for Part D.
                 Table 1: MEDIC Investigations and Case Referrals by Type of Service From
                 April 1, 2010, through March 31, 2011
                                                 Number            Percentage         Number of        Percentage
                  Type of Service                 of New               of New              Case           of Case
                                           Investigations       Investigations         Referrals         Referrals
                  Part C only                           177                8%                  19                8%

                  Part D only                         1807               79%                  223              91%

                  Both Parts C and D                    293              13%                    3                1%

                      Total                           2,277             100%                  245             100%

                 Source: OIG analysis of MEDIC survey data, 2011.




                 13
                   CMS tasked the MEDIC with fraud and abuse oversight for Part D beginning in FY 2007 and added Part C in
                 FY 2009.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                          9
                 The MEDIC also referred a total of 112 immediate advisements.
                 Immediate advisements bypass a MEDIC investigation and involve, for
                 example, complaints from former employees of a provider suspected of
                 fraud. Twenty-four percent of the immediate advisements involved Part C
                 only, 72 percent involved Part D only, and 4 percent involved both Parts C
                 and D.

                 A small percentage of the MEDIC’s investigations and
                 case referrals resulted from proactive methods
                 Of the 2,277 total investigations that the MEDIC opened, 10 percent (219)
                 were initiated through proactive methods; the remaining 90 percent were
                 from external sources, such as complaints. Of the 219 investigations that
                 the MEDIC initiated proactively, 10 involved Part C only, 184 involved
                 Part D only, and 25 involved Parts C and D.
                 In addition to using proactive data analysis, the MEDIC reported using
                 other proactive methods, such as holding liaison meetings with plan
                 sponsors; pharmacy benefit managers; and Federal, State, and local law
                 enforcement agencies, as well as conducting online searches for
                 information on providers. Table 2 shows the numbers and percentages of
                 new investigations that were from proactive methods and external sources.
                 Table 2: Numbers and Percentages of New Investigations From Proactive
                 Methods and External Sources From April 1, 2010, Through March 31, 2011
                                                                 Number      Percentage     Number      Percentage
                                                    Total
                                                                 Initiated      Initiated   Initiated      Initiated
                                                 Number
                   Type of Service                               Through       Through      Through       Through
                                                  of New
                                                                Proactive     Proactive     External       External
                                           Investigations
                                                                 Methods       Methods      Sources        Sources

                   Part C only                          177            10            6%          167           94%

                   Part D only                        1,807           184           10%         1623           90%

                   Both Parts C and D                   293            25            9%          268           91%

                      Total                           2,277           219           10%        2,058           90%

                 Source: OIG analysis of MEDIC survey data, 2011.


                 Of the 245 total cases the MEDIC referred to law enforcement,
                 9 percent (21) were based on investigations initiated through proactive
                 methods and 91 percent (224) were based on investigations initiated
                 through external sources. Of the MEDIC’s 21 proactive case referrals,
                 2 involved Part C only and 19 involved Part D only. There were no case
                 referrals involving both Parts C and D from proactive methods.
                 Table 3 shows the numbers and percentages of case referrals that were
                 from proactive methods and external sources.



MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                 10
                        Table 3: Numbers and Percentages of Case Referrals From Proactive
                        Methods and External Sources From April 1, 2010, Through March 31, 2011
                                                                          Number         Percentage           Number          Percentage
                                                             Total
                                                                          Initiated         Initiated         Initiated          Initiated
                                                        Number of
                          Type of Service                                 Through          Through            Through           Through
                                                             Case
                                                                         Proactive        Proactive           External           External
                                                         Referrals
                                                                          Methods          Methods            Sources            Sources
                          Part C only                             19               2              11%                17                  89%

                          Part D only                            223              19               9%               204                  91%

                          Both Parts C and D                       3               0               0%                 3              100%

                              Total                              245              21               9%               224                  91%

                        Source: OIG analysis of MEDIC survey data, 2011.


                        Between 2008 and 2011, the percentage of investigations from
                        proactive methods increased but the percentage of cases
                        referred from proactive methods decreased
                        Compared to the results from our previous MEDIC report, the overall
                        number of new investigations increased from 1,320 in FY 2008 to 2,277
                        between April 1, 2010, and March 31, 2011 (hereafter referred to as “the
                        2010 to 2011 timeframe”). The percentage of investigations initiated by
                        proactive methods increased as well—from 4 percent in FY 2008 to
                        10 percent during the 2010 to 2011 timeframe.
                        Additionally, the overall number of case referrals to law enforcement
                        increased since our previous review of the MEDICs, from 65 in FY 2008
                        to 245 during the 2010 to 2011 timeframe. However, the percentage of
                        case referrals initiated through proactive methods decreased—from
                        20 percent in FY 2008 to 9 percent during the 2010 to 2011 timeframe.
                        Table 4 compares MEDIC investigation and case referral data from
                        FY 2008 to the 2010 to 2011 timeframe.
                                                                                                         1
Table 4: MEDIC Investigations and Case Referrals by Method Initiated
                                                   New Investigations:                                               Case Referrals:
                 New Investigations:                                                   Case Referrals:
                                                      April 2010 to                                                   April 2010 to
                      FY 2008                                                             FY 2008
                                                      March 2011                                                      March 2011
                  Number          Percentage         Number         Percentage         Number     Percentage         Number       Percentage

 Proactive
                         50                 4%           219                10%            13                20%           21                 9%
 Methods
  External
                     1,270                96%          2,058                90%            52                80%          224                 91%
  Sources

    Total            1,320               100%          2,277               100%            65            100%             245             100%

Source: FY 2008 data from OIG report entitled Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and Abuse;
April 2010 to March 2011 data from OIG analysis of MEDIC survey data, 2011.
1
  The FY 2008 data contain the number of Part D investigations and case referrals because the MEDICs had only Part D responsibility
during that time. The April 2010 to March 2011 data contain Part C and Part D numbers because the MEDIC had both Part C and Part D
responsibility during that time.




 MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                          11
                 Most proactive projects focused on Part D
                 The MEDIC started 38 proactive data analysis projects during the 2010 to
                 2011 timeframe. Of those projects, 31 involved Part D only, 2 involved
                 Part C only, and 5 involved both Parts C and D.
                 Examples of proactive Part D projects conducted by the MEDIC included
                 reviewing medications that were contraindicated on the basis of a
                 beneficiary’s gender, identifying top narcotic prescribers, and identifying
                 claims involving deceased providers. The Part C proactive projects
                 included reviewing durable medical equipment services from selected
                 Part C plan sponsors to detect services that were not provided and
                 analyzing data from five Part C plan sponsors to determine whether
                 laboratory services were unbundled to increase payment amounts.
                 Examples of proactive projects that included both Parts C and D included
                 looking for beneficiaries whose Medicare identification numbers were
                 being improperly used and identifying duplicate billings of particular
                 medications to Parts C and D.

                 Barriers exist regarding data availability, access to
                 information, and recovery of inappropriate payments
                 Barriers include the MEDIC’s lack of access to centralized Part C data and
                 its inability to share specific information with other program integrity
                 contractors. Furthermore, there is no mechanism to recover payments
                 associated with improper Part C and D services when law enforcement
                 agencies do not accept cases involving these services for further action. In
                 addition, all but one of the barriers identified in our previous MEDIC
                 report remain. We describe these barriers more fully below.
                 Lack of a centralized Part C data repository hinders the
                 MEDIC’s ability to identify and investigate Part C fraud and
                 abuse
                 The MEDIC reported that because of the lack of a central repository of
                 Part C data, it was a challenge to undertake viable proactive Part C
                 projects that would not be too labor intensive. In contrast, for Part D, the
                 MEDIC can use the Integrated Data Repository to access prescription drug
                 event (PDE) records from all Part D plan sponsors to conduct proactive
                 data analyses. 14 These PDE records contain Part D prescription drug cost
                 and payment data.
                 The MEDIC reported that because it cannot access Part C data from a
                 central source, it must request the Part C encounter data from individual

                 14
                    CMS’s Integrated Data Repository is a data warehouse that contains Medicare Part A, Part B, and Part D
                 claims.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                               12
                 plan sponsors. Encounter data are records of items and services provided
                 to Part C beneficiaries. The MEDIC explained that to determine the
                 potential financial impact of complaint-related claims, it requests
                 providers’ payment information from the members of the Part C Fraud
                 Work Group. 15 The MEDIC further explained that because not all plan
                 sponsors participate in the Part C Fraud Work Group, the MEDIC may
                 miss some potential fraud and abuse. According to the MEDIC, the Part C
                 Fraud Work Group began with 16 Part C plan sponsors but grew to
                 32 plan sponsors by April 2011. In 2010, there were 174 Part C plan
                 sponsors, which means that the MEDIC was requesting information from
                 only 18 percent of Part C plan sponsors. 16
                 In January 2012, CMS required MA plan sponsors to begin submitting
                 Part C data to its new Encounter Data System. The MEDIC said it
                 believes that this new requirement will allow it to undertake future Part C
                 projects because all Part C encounter data will be contained in a
                 centralized data repository. CMS’s goal is to produce analytic reports that
                 reflect MA beneficiaries’ actual health care utilization by 2013. However,
                 CMS plans to validate the data before allowing it to be used as the basis
                 for plan payments in 2014. CMS has not reported when the centralized
                 Part C data repository will be available for the MEDIC’s use.
                 The MEDIC does not respond to Part C requests for information because
                 it does not have access to centralized Part C data. The MEDIC reported
                 that it did not receive any Part C requests for information during the 2010
                 to 2011 timeframe. All of the requests that the MEDIC received were for
                 Part D-related information. The MEDIC received 273 requests for
                 information from law enforcement and completed 288 such requests. 17
                 Most (78 percent) of the requests that the MEDIC received were from
                 OIG; the remaining requests were from DOJ.
                 The MEDIC explained that it did not receive or complete any
                 Part C-related requests for information because it does not have access to
                 centralized Part C data for responding to such requests. The MEDIC
                 further explained that it generally does not receive Part C requests,
                 because it conducts outreach to law enforcement agencies to make them
                 aware as to which data it possesses and which it does not, such as Part C
                 data. If law enforcement personnel request Part C data, the MEDIC refers

                 15
                   The Part C Fraud Work Group was initiated in March 2009 to inform Part C plan sponsors of fraud trends to
                 help prevent erroneous payments.
                 16
                   We obtained the number of 2010 Part C plan sponsors from CMS’s Health Plan Management System,
                 Contact Information Extract, accessed March 23, 2012. We excluded sponsors that had only stand-alone
                 Part D, 1833 cost, demonstration, or Program of All-Inclusive Care for the Elderly (PACE) contracts.
                 17
                   The number of requests completed is greater than the number of requests received because the MEDIC could
                 have completed requests that were received prior to April 2010.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                            13
                 them to the plan sponsors for assistance; however, the MEDIC does not
                 track such requests.

                 The MEDIC reported that it is prohibited from sharing specific
                 information with other program integrity contractors
                 In June 2012, the MEDIC reported that it did not have the authority to
                 share specific information related to its investigations and cases directly
                 with other program integrity contractors—e.g., Zone Program Integrity
                 Contractors (ZPIC)—to help fight fraud and abuse in Medicare Part C and
                 Part D. 18 The MEDIC explained that it is allowed to share information
                 about fraud schemes and summary data with other program integrity
                 contractors. However, it is prohibited from sharing specific details, such
                 as a beneficiary’s or provider’s billing history. The MEDIC reported that
                 sharing such information would help determine whether these
                 beneficiaries or providers are affecting other areas of Medicare, such as
                 Part A and Part B. The MEDIC also explained that sharing data with other
                 program integrity contractors and State agencies would allow it to build
                 larger investigations and to strengthen potential referrals, giving them
                 more prosecutorial merit.
                 CMS acknowledged that early in the MEDIC program, MEDICs were not
                 permitted to share Part D data with other program integrity contractors
                 because of regulatory restrictions (42 CFR 423.322). However, CMS
                 stated that section 6402(b) of the Patient Protection and Affordable Care
                 Act, enacted in March 2010, authorized the MEDIC to share specific
                 information related to its investigations and cases with other program
                 integrity contractors. However, CMS reported that there is one ZPIC with
                 an outstanding conflict of interest involving Part D and that the MEDIC
                 has been instructed not to share specific claim information until the
                 conflict of interest is mitigated.
                 There is no mechanism to recover payments from Part C or
                 Part D plan sponsors when law enforcement agencies do not
                 accept cases involving inappropriate services for further
                 action
                 The MEDIC reported that it does not have administrative authority to
                 recommend recoupment of payments associated with inappropriate
                 services. When law enforcement agencies do not accept MEDIC cases for


                 18
                    The MEDIC reported that CMS instructed that 42 CFR 423.322 limits the MEDIC’s ability to share
                 information with other program integrity contractors. Specifically, although the regulation allows use of Part D
                 information for program integrity activities, the MEDIC reported that it is not able to share data with other
                 program integrity contractors because these contractors’ efforts are not for the sole purpose of Part D program
                 integrity.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                14
                 further action, the MEDIC simply closes these cases. However, when law
                 enforcement agencies do not accept a case, it does not necessarily mean
                 that there was not fraud. Cases can be declined for a number of reasons,
                 including lack of resources.
                 Under its MEDIC Statement of Work, the MEDIC originally was tasked
                 with providing recommendations to CMS to support administrative actions
                 such as recovering overpayments, suspending enrollment, and imposing
                 civil monetary penalties. However, CMS instructed the MEDIC, first by
                 verbal instruction and then through a contract change memorandum issued
                 in January 2012, that the MEDIC is not required to recommend
                 administrative actions.
                 CMS staff explained that the MEDIC Statement of Work was modeled
                 after the Program Safeguard Contractor Statement of Work and reflects a
                 fee-for-service approach to administrative actions. CMS staff further
                 explained that the design of the Part C and D programs does not support
                 the MEDIC’s recommending administrative actions and stated that CMS
                 components fulfill this role. CMS provided documentation of its
                 components’ key responsibilities regarding administrative functions in
                 Parts C and D; however, there is no mention of collection of
                 overpayments.
                 Under the fee-for-service payment methodology for Medicare Parts A
                 and B, CMS pays providers directly and the ZPICs have the ability to
                 notify claims processors of improper payments that need to be collected.
                 However, under the capitated payment methodology for Parts C and D,
                 CMS pays plan sponsors advance monthly payments and the plan sponsors
                 pay providers for the services. CMS does not have a mechanism to
                 recover payments made to plan sponsors when law enforcement agencies
                 do not accept cases involving inappropriate services for further action.

                 All but one of the barriers previously identified by MEDICs
                 remain
                 As outlined in our previous MEDIC report, MEDICs described various
                 barriers that impacted their ability to identify or prevent potential Part D
                 fraud and abuse. We asked the MEDIC about these barriers to determine
                 whether they had been resolved or still remained. We determined from the
                 MEDIC’s response that one barrier concerning prescriber identifiers has
                 been resolved and two barriers regarding PDE data remain. Additionally,
                 although the MEDIC reports improvement, two barriers remain
                 concerning its ability to receive referrals from plan sponsors and
                 information from pharmacies, physicians, and pharmacy benefit managers.
                 We describe the barriers and the MEDIC’s response below.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)             15
                 Problem With Prescriber Identifiers. As detailed in our previous MEDIC
                 report, MEDICs reported issues with the prescriber identifier fields when
                 accessing Part D PDE records through their data system, Cognos. The
                 issue was that different types of prescriber numbers were not stored in the
                 correct fields, which affected the results of the MEDICs’ data analysis.
                 For example, one MEDIC reported that when using Cognos to query
                 records with a provider’s National Provider Identifier (NPI) number, it
                 found that NPI numbers were incorrectly being stored in the field for Drug
                 Enforcement Agency numbers. The MEDIC explained that Cognos now
                 has a single prescriber identifier field that contains all values submitted by
                 the plan sponsor, so the MEDIC can query that field for any kind of
                 prescriber identifier. Therefore, this barrier regarding prescriber
                 identifiers has been resolved.
                 Access to Important Data Variables. As described in our previous MEDIC
                 report, MEDICs reported that PDE data did not include, or that MEDICs
                 could not efficiently access, certain information vital to identifying and
                 investigating potential fraud and abuse and to building case referrals.
                 MEDICs had reported that it would be helpful for PDE data to include
                 beneficiary demographic information, such as name and address, because
                 law enforcement agencies often ask for this information when requesting
                 information from the MEDICs.
                 The MEDIC stated that to make data useful for law enforcement purposes,
                 it still needs to augment the PDE data with other CMS data and data from
                 third-party databases. The MEDIC captures information such as
                 beneficiary and prescriber name and address from other systems and
                 merges this information with the PDE data to obtain the full information
                 needed. The MEDIC reported that having these additional data fields in
                 the PDE data would enable it to respond more efficiently to requests for
                 information. The current lack of these fields in the PDE data necessitates
                 the MEDIC’s obtaining these data elsewhere; therefore, the barrier
                 regarding access to important data variables remains.
                 Tracking Changes to PDE Data. As described in our previous MEDIC
                 report, MEDICs reported issues with not being able to see various
                 iterations of a PDE record when accessing PDE data (i.e., if an adjustment
                 was made, there was no record of the original payment amount). One
                 MEDIC reported that this information was vital in determining trends
                 across multiple plans and in quantifying the amount of potential fraud for
                 a particular pharmacy. The MEDIC reported that it is still able to view
                 only the most recent iteration of a PDE record. Therefore, this barrier
                 regarding tracking changes to PDE data remains.



MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)               16
                 Referrals From Plan Sponsors. As described in our previous MEDIC
                 report, MEDICs reported that they may not have been aware of all
                 incidents of potential Part D fraud and abuse because plan sponsors are
                 encouraged—but not required—to refer such incidents to MEDICs.
                 In July 2012, CMS issued an update to Chapter 9 of its Prescription Drug
                 Benefit Manual and Chapter 21 of its Medicare Managed Care Manual
                 regarding plan sponsors’ compliance program guidelines. However, in
                 these revisions, plan sponsors are still only encouraged—not required—to
                 refer incidents of potential fraud and abuse to the MEDIC. The MEDIC
                 explained that through outreach and collaborative efforts, such as the
                 Part C and Part D Fraud Working Groups, the relationship between the
                 MEDIC and plan sponsors has become very collaborative. The MEDIC
                 reported that as a result, the number of referrals from plan sponsors has
                 dramatically increased. Nonetheless, the barrier remains regarding the
                 lack of a requirement for sponsors to report incidents of potential fraud to
                 the MEDIC.
                 Authority To Directly Obtain Information. As detailed in our previous
                 MEDIC report, MEDICs reported that they did not have the authority to
                 directly obtain information such as prescriptions or medical records from
                 pharmacies, physicians, and pharmacy benefit managers and that this lack
                 of authority hindered their ability to investigate potential fraud and abuse.
                 MEDICs explained that because CMS contracts with plan sponsors,
                 MEDICs had the authority to request information only from plan sponsors,
                 and not directly from entities such as pharmacies and pharmacy benefit
                 managers.
                 The MEDIC reported that it is still prohibited from obtaining information
                 such as prescriptions or medical records directly from these entities. It
                 explained that although it is still required to request this information
                 through plan sponsors, the increased collaboration between the MEDIC
                 and plan sponsors has resulted in a more timely response to its requests.
                 The MEDIC requests the information from the plan sponsors, who request
                 the information from the entities; the plan sponsors then forward this
                 information to the MEDIC. Although the MEDIC’s increased
                 collaboration with plan sponsors has aided its efforts, the barrier remains
                 regarding the MEDIC’s directly obtaining information from these entities.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)              17
                 CMS does not require the MEDIC to submit data
                 elements that could help CMS oversee the MEDIC’s
                 benefit integrity activities
                 Parts C and D and Proactive Data. The workload data that CMS collects
                 from the MEDIC does not separate, by Parts C and D, the data on
                 investigations, case referrals, immediate advisements, proactive data
                 analyses, or requests for information. Although the MEDIC provided us
                 with these data when we requested them, the information is not contained
                 in the workload data provided to CMS. Without these data, CMS is
                 unable to determine on an ongoing basis how much of the MEDIC’s
                 workload is associated with Part C and Part D.
                 Additionally, the investigation- and case-referral-related portion of the
                 workload data that CMS collects from the MEDIC does not provide the
                 total number of investigations and case referrals that are based on
                 proactive methods or external sources. The investigation-related data
                 contain a field for investigations based on “proactive data analyses”;
                 however, the number reported in this field does not reflect the MEDIC’s
                 total number of investigations initiated by all proactive methods.
                 Moreover, the case-referral-related data do not contain any fields to
                 indicate whether the referrals were based on investigations initiated
                 through proactive methods or external sources. Without these data, CMS
                 is unable to determine how much of the MEDIC’s investigation and case
                 referral workload results from proactive methods versus external sources.
                 Reporting of Investigations. We learned from the MEDIC that when it
                 receives multiple complaints about a single provider, the MEDIC counts
                 each complaint as a separate investigation. The MEDIC explained that it
                 tracks individual complaints in its case management system and that each
                 of these is counted as a new investigation in the workload data submitted
                 to CMS. CMS acknowledged that the MEDIC counts one investigation
                 per complaint and explained that this item is currently under review to
                 assess the need for changes.
                 A November 2011 OIG report on ZPICs determined that there were
                 differences in the ways two ZPICs reported their new investigations in
                 their workload statistics. 19 One ZPIC included all fraud complaints in its
                 number of new investigations reported to CMS, regardless of whether
                 multiple complaints for a particular provider were merged into a single
                 investigation. However, the other ZPIC explained that if it received a
                 complaint on a particular provider, started an investigation, and then


                 19
                   OIG, Zone Program Integrity Contractors’ Data Issues Hinder Effective Oversight, OEI-03-09-00520,
                 November 2011.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                         18
                 received another complaint on the same provider, the second complaint
                 would not be counted as a new investigation in the workload statistics that
                 this ZPIC reported to CMS. Ensuring that the MEDIC counts
                 investigations the way CMS intends for them to be counted is important to
                 ensuring that this workload statistic is meaningful and that CMS can
                 compare this statistic across its contractors.
                 Requests for Information. From April through July 2010, the MEDIC did
                 not track requests for information by priority level (i.e., Priority I and
                 Priority II). A CMS review revealed that the MEDIC was not meeting its
                 timeliness standards, and CMS put the MEDIC on a corrective action plan
                 to address this issue. The MEDIC began reporting by priority level in
                 August 2010 and reported 100-percent timeliness during the remainder of
                 our timeframe (August 2010 through March 2011). 20 However, a review
                 of the workload data revealed that although the MEDIC reported on the
                 number of Priority I and Priority II requests completed within required
                 timeframes, the workload report does not have fields to capture Priority I
                 and Priority II requests that do not meet required timeframes. To assess
                 whether the MEDIC is meeting the established timeframes for Priority I
                 and Priority II requests for information, it is important to ensure that the
                 workload statistics are capturing the appropriate data.




                 20
                   Because of improvements the MEDIC made, CMS removed the MEDIC from the corrective action plan in
                 December 2010.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                        19
                 CONCLUSION AND RECOMMENDATIONS
                 Over the past several years, MEDIC responsibilities and jurisdictions have
                 evolved. CMS added oversight of Part C as a MEDIC responsibility for
                 FY 2009 and consolidated Part C and D benefit integrity responsibility
                 into one national MEDIC for FY 2010.
                 Although the MEDIC had been responsible for Part C for more than
                 2 years by April 2011, its Part C investigations and case referrals
                 represented only a small percentage of its benefit integrity activities. In
                 addition, the lack of a centralized Part C data repository has greatly
                 limited the MEDIC’s ability to identify and investigate fraud and abuse in
                 Part C. Additionally, although CMS has stated that innovative analytical
                 methodologies are critical to the success of a benefit integrity program,
                 just a small percentage of MEDIC investigations and case referrals were
                 from proactive methods. Moreover, there is no mechanism to recover
                 payments associated with inappropriate Part C or D services when law
                 enforcement agencies do not accept cases involving these services for
                 further action. Furthermore, barriers identified in OIG’s previous MEDIC
                 report remain today. These barriers include the lack of a requirement for
                 plan sponsors to refer fraud and abuse incidents to the MEDIC and the
                 MEDIC’s not being able to directly obtain information from pharmacies,
                 physicians, and pharmacy benefit managers.
                 The Parts C and D programs involve significant benefit expenditures and a
                 substantial number of beneficiaries—$190 billion in 2011 and 33 million
                 beneficiaries in 2012. CMS is relying on one contractor to perform
                 benefit integrity functions for both these programs, and it is important to
                 ensure that there is effective and proactive oversight of the programs by
                 both the MEDIC and CMS.
                 Therefore, we recommend that CMS:
                 Provide the MEDIC With Centralized Part C Data To Enable It
                 To More Comprehensively and Proactively Identify and
                 Investigate Part C Fraud and Abuse
                 Although the MEDIC stated that CMS’s requirement for Part C plan
                 sponsors to begin submitting encounter data in 2012 will enhance the
                 MEDIC’s ability to conduct investigations and proactive data analysis, it is
                 unclear how soon the MEDIC will have access to the centralized Part C
                 data repository. Until this centralized repository is available, CMS should
                 advise the MEDIC to obtain Part C data from individual plan sponsors
                 beyond the ones currently in the Part C Fraud Work Group. Once the
                 centralized repository is available, CMS should ensure that the MEDIC
                 receives timely access to the data.

MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)            20
                 Clarify Its Policy and Instruct the MEDIC Under What
                 Circumstances It May Share Specific Information With Other
                 Entities, Including ZPICs and State Agencies
                 Although CMS reports that the MEDIC may share specific information
                 with other program integrity contractors when there is not a conflict of
                 interest, the MEDIC reported in June 2012 that it is not authorized to share
                 such information. CMS should clarify its policy so that the MEDIC shares
                 information to the fullest extent permitted, as this would improve the
                 MEDIC’s ability to effectively identify and investigate potential fraud and
                 abuse.

                 Explore Methods To Develop and Implement a Mechanism
                 To Recover Payments From Part C and Part D Plan Sponsors
                 When Law Enforcement Agencies Do Not Accept Cases
                 Involving Inappropriate Services for Further Action
                 CMS currently does not have such a mechanism to help safeguard
                 Medicare funds.

                 Amend Regulations To Authorize the MEDIC To Directly Obtain
                 Information From Entities Such As Pharmacies, Physicians,
                 and Pharmacy Benefit Managers
                 Because CMS did not concur with a similar recommendation in our
                 previous MEDIC report, OIG continues to recommend that CMS allow the
                 MEDIC direct access to these entities. Current regulations allow
                 sponsors’ contracts to specify whether CMS or its designees (e.g., the
                 MEDIC) may obtain information directly from these entities or whether
                 the plan sponsor will provide the information. To improve the efficiency
                 of the MEDIC’s work, CMS should amend current regulations to require
                 that sponsors’ contracts specify that information from sponsors’
                 subcontractors, network providers, and other associated entities be
                 provided directly to CMS or its designees. To ensure that plan sponsors
                 are aware of the MEDIC’s requests, CMS could require the MEDIC to
                 inform plan sponsors when it intends to collect information directly from
                 these entities.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)            21
                 Amend Regulations To Require Part C and Part D Plan
                 Sponsors To Refer Potential Fraud and Abuse Incidents
                 to the MEDIC
                 Although CMS has revised Chapter 9 of its Prescription Drug Benefit
                 Manual and Chapter 21 of its Medicare Managed Care Manual, these
                 revisions still state that plan sponsors are encouraged—not required—to
                 refer incidents of potential fraud and abuse to the MEDIC. Additionally,
                 in previous OIG reports we have recommended that CMS require Parts C
                 and D plan sponsors to refer potential fraud and abuse to CMS or other
                 appropriate entities. 21 However, because CMS concurred only partially
                 with these recommendations, OIG continues to recommend that Parts C
                 and D plan sponsors be required to refer potential fraud and abuse
                 incidents to the MEDIC and that CMS amend current regulations to
                 require these referrals.

                 Enhance Monthly Workload Reporting Requirements
                 To Improve CMS Oversight of the MEDIC’s Benefit Integrity
                 Activities
                 These MEDIC workload reporting requirements should include:
                 (1) a separation of workload data by Parts C and D, (2) a breakout of
                 investigations and cases initiated by proactive methods and external
                 sources, (3) fields in the workload data to capture requests for information
                 not completed within the required timeframes, and (4) clarification on how
                 CMS intends for the MEDIC to report its number of new investigations in
                 relation to the number of complaints received.




                 21
                   OIG, Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse, OEI-03-10-00310,
                 February 2012, and OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600, May 2012.


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                        22
                 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                 RESPONSE
                 CMS concurred with our first and second recommendations. CMS stated
                 that it expects to provide the MEDIC with timely access to Part C
                 encounter data once the centralized repository is available. Additionally,
                 CMS stated it will provide guidance to the MEDIC on when it is
                 appropriate to share information with other entities, including ZPICs and
                 state agencies.
                 CMS partially concurred with our third recommendation to develop and
                 implement a mechanism to recover overpayments. It concurred for Part D
                 but did not concur for Part C because of the nature of Part C payments.
                 For Part D, CMS stated that when the MEDIC develops adequate evidence
                 of improper payments made to Part D plan sponsors that result from
                 inappropriate billing by pharmacies or other providers, CMS would
                 explore recovery of any improper payments if they are final reconciled
                 payments. Regarding Part C, CMS stated that when providers
                 fraudulently bill Part C plan sponsors, there are no claim-specific
                 Medicare payments implicated. Additionally, CMS stated that to the
                 extent that fraudulent billings are identified, the Part C plan, not CMS,
                 would be entitled to any recovered amounts. OIG understands that there
                 are not claim-specific payments made to Part C plan sponsors by CMS
                 because sponsors are paid a capitated rate. However, to account for
                 improper payments paid to providers, CMS should develop a mechanism
                 to recover some portion of these improper payments from the capitated
                 payments made to Part C plan sponsors. To accomplish this, CMS should
                 seek statutory authority if necessary.
                 CMS did not concur with our fourth recommendation to amend
                 regulations to authorize the MEDIC to directly obtain information from
                 entities such as pharmacies, physicians, and pharmacy benefit managers.
                 CMS stated that it believes the choice of how requested information is to
                 be provided should remain with the sponsor and its subcontractors.
                 However, to increase the efficiency of the MEDIC’s work, OIG maintains
                 that CMS should amend current regulations to allow the MEDIC direct
                 access to these entities.
                 CMS partially concurred with our fifth recommendation to amend
                 regulations to require Parts C and D plan sponsors to refer potential fraud
                 and abuse incidents to the MEDIC. CMS stated that it will explore the
                 option of placing this additional burden on plan sponsors versus the value
                 of the information to be gained in collecting such data. CMS added that
                 through guidance and education, it will continue to encourage plan
                 sponsors to voluntarily refer potential fraud and abuse incidents that may

MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)             23
                 warrant further investigation. OIG continues to recommend that CMS
                 amend current regulations so plan sponsors are required—not just
                 encouraged—to refer potential fraud and abuse incidents to the MEDIC.
                 By not requiring reporting, CMS limits the MEDIC’s ability to monitor
                 fraud trends and identify problematic providers across the Parts C and D
                 programs.
                 CMS concurred with our last recommendation to enhance monthly
                 workload reporting requirements to improve CMS oversight of the
                 MEDIC’s benefit integrity activities. CMS stated that MEDIC reporting
                 responsibilities have changed since the end of our review; however, it is
                 unclear if those reporting changes incorporate the enhancements we
                 proposed in our recommendations (e.g., separating the reporting of
                 workload data, such as investigations and case referrals by Parts C and D).
                 We ask that CMS, in its final management decision, provide OIG with
                 documentation of the new reporting requirements and indicate whether
                 they incorporate the requirements proposed in the OIG recommendation.
                 The full text of CMS's comments is provided in Appendix B.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)              24
APPENDIX A
Types of Potential Part C and Part D Fraud and Abuse

This Appendix provides information on the types of potential Part C and Part D fraud and
abuse associated with the National Benefit Integrity (NBI) Medicare Drug Integrity
Contractor’s (MEDIC) investigations and case referrals between April 1, 2010, and
March 31, 2011. The data are sorted by number of investigations.

Table A-1: Types of Potential Part C Fraud and Abuse Associated With the NBI MEDIC’s
Investigations and Case Referrals
                                                                                                                   Number
                                                                                              Number of
                        Types of Part C Fraud and Abuse                                     Investigations1
                                                                                                                   of Case
                                                                                                                  Referrals1
 1. Suspect billing - Examples include (a) questionable or suspicious billing practices
                                                                                                 150                   4
 and (b) overutilization.

 2. Billing for services never rendered - Provider submits claims or encounter data
                                                                                                  95                   10
 for services that were never provided to beneficiary.
 3. Attempts to steal beneficiary’s identity/money - Examples of this include (a) an
 individual or organization steals beneficiary's identity or money and (b) an individual          49                   12
 uses or steals another person's Medicare or Medicare Advantage (MA) card.
 4. Improper coding (upcoding and unbundling) - By using the wrong billing code or
 unbundling the codes included in a larger, more inclusive set of codes, the health
                                                                                                  49                   1
 care provider can be reimbursed at a higher rate than if the correct billing codes
 were used and the services were billed together (i.e., were bundled).
 5. Marketing schemes - Plan sponsor, first-tier entity, or downstream entity violated
 Medicare marketing guidelines or other Federal or State laws, rules, and regulations             38                   2
 to improperly enroll a beneficiary in an MA plan.

 6. Billing for ineligible consumers - Misrepresentation of beneficiary's eligibility
                                                                                                  29                   1
 information, medical condition, or plan enrollment information.

 7. Inducements, bribes, or kickbacks - Examples include inappropriate discounts,
                                                                                                  23                   1
 support services, educational grants, or research funding.

 8. Double billing - This occurs when the provider receives more than one payment
                                                                                                  20                   0
 for the same service and keeps the money.
 9. Overcharging the beneficiary - Examples include (a) charging the beneficiary
 improper coinsurance or premium amounts, or (b) billing the beneficiary directly for
                                                                                                  19                   0
 the total amount of the bill, including the amount of the charge that the provider has
 agreed to write off after the MA organization has paid.
 10. Falsification of records or other data - Examples include falsification of medical
 record or dates of service; member falsifying medical referral; forging a physician's            19                   2
 signature; forged or altered prescription for durable medical equipment.

 11. False-front provider - Fallacious companies created to submit fraudulent billing
                                                                                                  14                   10
 for services not rendered.
 12. Telemarketing schemes - Contacting beneficiaries to obtain personal identifying
                                                                                                  11                   2
 or protected health information.
 13. Failure to provide medically necessary services - Plan sponsor, health care
 provider, or other entity fails to provide medically necessary items or services that it
                                                                                                  9                    0
 is required to provide under law or under the contract, and that failure adversely
 affects, or is substantially likely to affect, the beneficiary.
 14. Improper cost reporting or cost shifting - Provider submits inflated reports of
 patient traffic and treatment costs in order to induce payers to increase future                 4                    0
 per-patient capitation fees.
 15. Identity theft - Use of provider’s credentials to submit fraudulent claims/bill for
                                                                                                  4                    12
 services not rendered.
                                                                                                              continued on next page


MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                              25
Table A-1: Types of Potential Part C Fraud and Abuse Associated With the NBI MEDIC’s
Investigations and Case Referrals (Continued)
                                                                                                                             Number
                                                                                                       Number of
                           Types of Part C Fraud and Abuse                                           Investigations1
                                                                                                                             of Case
                                                                                                                            Referrals1

    16. Tax evasion/fraud.                                                                                   0                   1
    17. Health Insurance Portability and Accountability Act (HIPAA) violations - Privacy
                                                                                                             0                   1
    violations and misuse of protected health information.
    Total                                                                                                   533                  59

Source: Office of Inspector General (OIG) analysis of MEDIC survey data, 2011.
1
  Total numbers of investigations and case referrals do not equal totals cited in the report text because each investigation and case may
have involved more than one type of fraud and abuse. Additionally, for three types of fraud and abuse, there were more case referrals than
investigations. This is because some case referrals may be associated with investigations begun before April 1, 2010.




Table A-2: Types of Potential Part D Fraud and Abuse Associated With the NBI MEDIC’s
Investigations and Case Referrals
                                                                                                                             Number
                                                                                                       Number of
                           Types of Part D Fraud and Abuse                                           Investigations1
                                                                                                                             of Case
                                                                                                                            Referrals1

    1. Inappropriate prescribing - Examples include (a) physician writing prescriptions
    outside his/her scope of practice; (b) off-label prescribing of controlled substances;
    (c) prescriber being on the OIG exclusion list; or (d) inappropriate prescribing of                     589                  64
    controlled substances—physician being identified as prescribing high volumes of
    controlled substances.
    2. Inappropriate billing - Examples include (a) billing for brand-name drugs when
    generics are dispensed; (b) billing for noncovered prescriptions as covered items;
    (c) billing for prescriptions that are never picked up; or (d) double billing—the                       547                  84
    provider receives more than one payment for the same service and keeps the
    money.
    3. Forged or altered prescriptions or other documents - Prescriptions are forged or
    altered by someone other than the prescriber or pharmacist without prescriber                           466                  71
    approval.
    4. Attempts to steal beneficiary identity to obtain prescriptions - Examples of this
    include (a) individual uses another person's Medicare card to obtain prescriptions or                   402                  69
    (b) beneficiary is asked to sell Medicare card for purpose of obtaining prescriptions.

    5. Diverting prescriptions - An individual obtains prescription drugs and gives or
                                                                                                            366                  46
    sells this medication to someone else.
    6. Doctor shopping or stockpiling - Examples of this include (a) beneficiary consults
    a number of doctors for the purpose of inappropriately obtaining multiple
    prescriptions for narcotic painkillers or other drugs or (b) beneficiary attempts to                    314                  38
    game her/his drug coverage by obtaining and storing large quantities of drugs and
    then disenrolling.
    7. Overcharging beneficiary for prescriptions - Examples of this include (a) charging
    beneficiary for drugs beneficiary did not receive; (b) pharmacy asking beneficiary to
    pay uncompensated amounts; or (c) “bait and switch” pricing, i.e., beneficiary is led                   281                  2
    to believe a drug will cost one price, but at point of sale, beneficiary is charged a
    higher amount.
    8. Inappropriate prescription dispensing - Examples of this include (a) dispensing
    expired or adulterated prescription drugs; (b) dispensing without a prescription; or
                                                                                                            213                  3
    (c) splitting - pharmacist or mail order pharmacy splits prescription to receive
    additional dispensing fee.
    9. Identity theft or use of provider’s identifying information, such as National
                                                                                                            146                  27
    Provider Identifier (NPI) or Drug Enforcement Agency (DEA) numbers.

    10. Marketing schemes - Examples include (a) misrepresentation of plan benefits or
                                                                                                            92                   4
    (b) inappropriate soliciting.
                                                                                                                       continued on next page



MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                         26
Table A-2: Types of Potential Part D Fraud and Abuse Associated With the NBI MEDIC’s
Investigations and Case Referrals (continued)
                                                                                                                              Number
                                                                                                       Number of
                           Types of Part D Fraud and Abuse                                           Investigations1
                                                                                                                              of Case
                                                                                                                             Referrals1
    11. Inducements, kickbacks, or bribes - Examples include (a) prescriber is offered,
    is paid, solicits, or receives unlawful payments as inducement or reward for writing
    prescriptions for drugs or products; or (b) pharmacy benefit manager receives                            84                   9
    unlawful payments in order to steer a beneficiary toward a certain plan or drug, or for
    formulary placement.
    12. Pharmacy submitting false claims under invalid NPI and/or DEA numbers.                               18                  37

    13. Poor quality of care.                                                                                14                   6

    14. Pharmacy is unresponsive to audit request - Pharmacy does not respond to
                                                                                                             11                   0
    desk or in-store audit request.
    15. Failure to provide medically necessary prescription drugs - Plan sponsor, health
    care provider, or other entity fails to provide medically necessary prescription drugs
                                                                                                              9                   0
    that the organization is required to provide under law or under the contract, and that
    failure adversely affects, or is likely to affect, the beneficiary.
    16. HIPAA violations - Privacy violations and misuse of protected health
                                                                                                              5                   1
    information.

    17. Beneficiary travels an unusually long distance to obtain prescriptions.                               4                   7

    Total                                                                                                  3,561                468

Source: OIG analysis of MEDIC survey data, 2011.
1
  Total numbers of investigations and case referrals do not equal totals cited in the report text because each investigation and case may
have involved more than one type of fraud and abuse. Additionally, for two types of fraud and abuse, there were more case referrals than
investigations. This is because some case referrals may be associated with investigations begun before April 1, 2010.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                         27
                      APPENDIX B
                      Agency Comments




   l-4--	
    /.P.'""-.._
                   DEPAR'IMENT OF HEALTH & HUMAN SERVICES                                  Centers lor Medicare & Medicaid Services


                                                                                           Administrator
                                                                                           Washington, DC 20201




                  DATE:
                                NOV 0 5 201Z

                  TO: 	         Daniel R. Levinson 

                                Inspector General 

                                                   /S/
                  FROM: 	       M:Kifya'hvenner 

                                Acting .Adm\nistrator 


                  SUBJE<..1: 	 Office of Inspector General (OIG) Draft Report: "MEDIC Benefit Integrity
                               Activities in Medicare Parts C and D'' (OEI-03-11-00310)


                  The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                  comment on the Office of Inspector General (OJG) draft report entitled, "MEDIC Benefit
                  Integrity Activities in Medicare Parts C and D." The objectives of the draft report were to
                  determine the extent to which the Medicare Drug Integrity Contractor (MEDIC) performed
                  Medicare Parts C and D be nefit integrity activities, describe barriers encountered by the MEDIC
                  performing these activities, and determine if previous barriers were resolved. In addition, this
                  report identified workload data elements to improve CMS's oversight of the MEDIC' s activities.

                  The MEDIC's responsibilities include, but are not limited to, identifying and investigating
                  potential Part C and Part D fraud and abuse. To accomplish this task, CMS provides the MEDIC
                  with the most comprehensive and updated data available to use in proactively identifying and
                  investigating fraud, waste, and abuse. In addition, CMS and the MEDIC prioritize regular
                  partnering with other contractors, Parts C and D plan sponsors, and law enforcement to ensure
                  the most effective and efficient fight against Medicare fraud, waste, and abuse.

                  Medicare Parts C and D plan sponsors are strongly encouraged by CMS to report fraud incidents
                  to the MEDIC for further investigation and possible referral to law enforcement. CMS holds
                  Part C and Part D plan sponsors solely accountable for compliance with program requirements,
                  including the implementation of measures designed to prevent fraud, waste, and abuse.

                  We would also like to express our gratitude to OIG for conducting this evaluation . CMS's
                  responses to the OIG recommendations are below.

                  OIG Recommendation I

                  The CMS shall provide the MEDIC with centralized Part C data to enable it to more
                  comprehensively and proactively identify and investigate Part C fraud and abuse.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)                                                        28
MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)   29
MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)   30
MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)   31
MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)   32
                 ACKNOWLEDGMENTS
                 This report was prepared under the direction of Robert A. Vito, Regional
                 Inspector General for Evaluation and Inspections in the Philadelphia
                 regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                 Tara Bernabe served as the team leader for this study. Other Office of
                 Evaluation and Inspections staff from the Philadelphia regional office who
                 conducted the study include Nancy J. Molyneaux and Sunil Patel. Central
                 office staff who provided support include Scott Manley, Christine Moritz,
                 Tasha Trusty, and Rita Wurm.




MEDIC Benefit Integrity Activities in Medicare Parts C and D (OEI-03-11-00310)           33
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
